App. 1
United States Court of Appeals
for the Eighth Circuit
---------------------------------------------------------------------------------------------

No. 19-3286
---------------------------------------------------------------------------------------------

Mary E. Canning
Plaintiff - Appellant
v.
Creighton University
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from United States District Court
for the District of Nebraska—Lincoln
-----------------------------------------------------------------------

Submitted: October 21, 2020
Filed: April 21, 2021
-----------------------------------------------------------------------

Before SMITH, Chief Judge, LOKEN and GRUENDER,
Circuit Judges.
-----------------------------------------------------------------------

SMITH, Chief Judge.
In 2017, Creighton University (“Creighton”) dismissed Dr. Mary E. Canning from its medical-residency
program. Canning sued Creighton for wrongful termination, alleging that Creighton discriminated against

App. 2
her based on age and disability and also retaliated
against her. The district court1 granted summary judgment in favor of Creighton. We affirm.
I.

Background

In July 2015, Canning, age 57, began her first year
as an internal-medicine resident at Creighton. The
Clinical Competency Committee (“Committee”) is responsible for overseeing each resident’s progress. Drs.
Erica K. Cichowski and Joan Porter were the relevant
Committee members during Canning’s residency.
Throughout Canning’s first year, various doctors
expressed concerns about her basic skills and level of
competence. When the Committee met in December
2015 to review each resident’s progress, it concluded
that Canning had not progressed in several areas, necessitating that she repeat her intern year. Canning
“agreed with [that] decision.” Am. Compl at 2-3, Canning v. Creighton Univ., No. 4:18-cv-03023-JMG-CRZ
(D. Neb. 2018), ECF No. 21.
Shortly thereafter, Canning agreed to meet with
Dr. Geoffrey Anderson, a psychologist. After his first
meeting with Canning, Dr. Anderson expressed “concerns about [Canning’s] capacity to learn and retain
complex and abstract information . . . whether . . . due
to an organic cause (dementia) or functional (anxiety
or substance induced)” and that she might “make a
1

The Honorable John M. Gerrard, Chief Judge, United
States District Court for the District of Nebraska.

App. 3
critical error in patient care.” Index in Opp’n to Mot.
for Summ J., Exs. 8-24, at 5, Canning v. Creighton
Univ., No. 4:18-cv-03023-JMG-CRZ (D. Neb. 2019),
ECF No. 53-8.
Two days after Canning met with Dr. Anderson,
Drs. Cichowski and Porter informed her that (1) she
was being placed on a leave of absence with pay until
a fitness-for-duty evaluation deemed her safe for patient care and (2) her contract would not be renewed
regardless of whether she was deemed fit for duty.
About a week later, Canning filed a grievance alleging that a third-year resident told a “joke” that she
had dementia. About another week later, Canning’s
attorney Edward Pohren sent Dr. Cichowski a letter
outlining Dr. Cichowski’s alleged acts of unlawful discrimination and objecting to the requirement that she
submit to a fitness-for-duty evaluation. In response,
Creighton’s general counsel proposed a resolution:
Canning could repeat her first year of residency if she
was cleared for duty after submitting to the evaluation.
Neuropyschologist Dr. Colleen Connolly evaluated
Canning and found her to be in good mental health.
Canning then submitted to a fitness-for-duty evaluation by Dr. Ty Callahan, who also reviewed Dr. Connolly’s report. Similarly, Dr. Callahan did not find any
evidence of a medical or psychiatric condition compared to peers similar in age, gender, and education.
Thus, the Committee allowed Canning to return in
July 2016 to repeat her intern year. But Canning

App. 4
“continued to struggle with her fund of medical
knowledge, the completion of assessments, and development of care plans.” Canning v. Creighton Univ., No.
4:18-cv-3023-JMG-CRZ, 2019 WL 4671180, at *5 (D.
Neb. Sept. 25, 2019). In September 2016, after reviewing supervising physicians’ evaluations of Canning
since July 2016, the Committee placed Canning on
“under review” status. In December 2016, it placed her
on probation.
Only a few days after being placed on probation,
Canning made a patient-safety error. Specifically, Canning discharged a patient admitted for a pulmonary
embolism without providing the patient with a prescription for an anticoagulant. Though Canning’s supervisors were not present when she discharged the
patient, they had previously reviewed the discharge
plans with her, directing her to prescribe the patient a
novel anticoagulant.2 Fortunately, before the patient
left the hospital, a nurse noticed the error and provided
the patient with the appropriate prescription. Canning
conceded that her error was “[e]xtremely serious.” Index in Supp. of Mot. for Summ. J., Canning Dep. Excerpts, at 40, Canning v. Creighton Univ., No. 4:18-cv03023-JMG-CRZ (D. Neb. 2018), ECF No. 46-1.

2

Canning disputes that she made the error under direct supervision because there were no other doctors physically present
when she discharged the patient. However, she does not dispute
Creighton’s evidence that she received prior directions from her
supervisors about discharging the patient on the proper anticoagulants.

App. 5
The Committee then recommended Canning’s dismissal from the residency program, citing the “significant patient safety near miss” as its reason. Index in
Supp. of Mot. for Summ J, Canning Dep. Ex. 19, at 1,
Canning v. Creighton Univ., No. 4:18-cv-03023-JMGCRZ (D. Neb. 2018), ECF No. 46-14.
Canning sued Creighton for: (1) age discrimination, (2) disability discrimination, and (3) retaliation.
Canning alleged age discrimination under the Age Discrimination in Employment Act (ADEA) and Nebraska
Fair Employment Practices Act (NFEPA) and disability discrimination and retaliation under the Americans with Disabilities Act (ADA) and NFEPA. As the
district court stated, ADEA, ADA, and NFEPA claims
for age and disability discrimination “share a common
analysis,” all requiring but-for causation. Canning,
2019 WL 4671180, at *6 n.1, *9 n.3. For retaliation
claims “[i]t is unclear whether a causal connection under the NFEPA requires but-for causation, or only requires the protected activity to be a motivating factor
for the adverse employment action.” Id. at *10 (citing
Ludlow v. BNSF Ry. Co., 788 F.3d 794, 802 (8th Cir.
2015)). However, the district court did not find that the
distinction was material. See id. at * 10-11. The district
court granted summary judgment in Creighton’s favor
regarding all three claims, concluding that Canning
failed to show causation.

App. 6
II.

Discussion

Canning argues that summary judgment was not
proper on any claim. We review the grant of summary
judgment de novo. Torgerson v. City of Rochester, 643
F.3d 1031, 1042 (8th Cir. 2011) (en banc). Summary
judgment is appropriate when “the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). If there is a genuine dispute, we
view the disputed facts in the light most favorable to
the nonmovant. Torgerson, 643 F.3d at 1042. If, viewing
the whole record, a reasonable factfinder could not find
for the nonmovant, there is no genuine issue for trial.
Id.
As an initial matter, Canning challenges Creighton’s January 2017 decision to terminate her from the
medical school’s postgraduate medical education program, not its decision not to renew her contract in December 2015.3 Accordingly, we focus, as the district
court did, on the undisputed facts following Canning’s
first year of internal residency.
A.

Age Discrimination

Canning argues that the district court erred when
it concluded that no rational factfinder could conclude
that her termination was motivated by age. We disagree.

3

See Canning, 2019 WL 4671180, at *6.

App. 7
“[T]he ADEA prohibits discrimination against employees, over the age of 40, because of their age.” Tramp
v. Associated Underwriters, Inc., 768 F.3d 793, 798 (8th
Cir. 2014) (quoting Holmes v. Trinity Health, 729 F.3d
817, 821 (8th Cir. 2013)). A claim under the ADEA requires proof by a preponderance of the evidence that
age was the but-for cause of the challenged employer
decision. Id. at 800. When there is no direct evidence of
discrimination, the plaintiff may establish an inference of discrimination under the McDonnell Douglas4
burden-shifting framework. Tramp, 768 F.3d at 800.
First, the plaintiff must satisfy a four-part prima facie
case of age discrimination: (1) the plaintiff “is over 40
years old”; (2) the plaintiff “met the applicable job qualifications”; (3) the plaintiff “suffered an adverse employment action”; and (4) “there is some additional
evidence that age was a factor in the employer’s termination decision.” Id. (quotation omitted).
Once the plaintiff establishes this prima facie
case, the burden shifts to the employer to articulate a
legitimate, nondiscriminatory reason for the termination. Id. If the employer articulates such a reason, the
plaintiff is then required to show that the employer’s
reason was pretext for discrimination. Id. Though the
burden of production shifts to the employer, the plaintiff always bears “the burden of persuasion to prove
that age was the ‘but-for’ cause of the termination.” Id.

4

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802
(1973).

App. 8
(quoting Rahlf v. Mo-Tech Corp., 642 F.3d 633, 637 (8th
Cir. 2011)).
1.

Creighton’s Reason for Termination

The district court concluded that Canning satisfied the prima facie elements, and Creighton has not
contended otherwise on appeal. Therefore, we assume
she has met her prima facie case.
Assuming Canning made a prima facie case for
age discrimination, the burden of production shifts to
Creighton “to articulate some legitimate, nondiscriminatory reason for the employee’s [termination].” McDonnell Douglas, 411 U.S. at 802. “[T]he defendant’s
explanation of its legitimate reasons must be clear and
reasonably specific.” Tex. Dep’t of Cmty. Affs. v. Burdine,
450 U.S. 248, 258 (1981). However, this burden is “not
onerous” and does not require proof by a preponderance of the evidence. Torgerson, 643 F.3d at 1047 (quotation omitted).
Creighton produced a legitimate, nondiscriminatory reason for terminating Canning in January 2017
by explaining that Canning made an “egregious” error
affecting “patient safety,” “despite supervisor and attending efforts.” Index in Supp. of Mot. for Summ J,
Canning Dep. Ex. 19, at 2. Thus, Creighton satisfied its
burden.

App. 9
2.

Canning’s Evidence of Pretext

Because Creighton produced a legitimate, nondiscriminatory reason for Canning’s termination, Canning must show that this reason was pretextual. We
agree with the district court that Canning’s proof falls
short of showing this requirement.
After an employer produces a legitimate, nondiscriminatory reason for termination, the burden shifts
to the terminated employee to put forth proof that the
proffered reason was not the true reason for discharge
because it was merely “a pretext for discrimination.”
Kohrt v. MidAm. Energy Co., 364 F.3d 894, 897 (8th Cir.
2004) (quoting Hitt v. Harsco Corp., 356 F.3d 920, 924
(8th Cir. 2004)).
Although “a plaintiff may establish pretext by
showing that the employer did not truly believe the
employee engaged in the conduct justifying termination,” if the employer’s proffered reason was “truly . . .
the reason for the plaintiff ’s termination,” we will not
“decide whether [that] reason was wise, fair, or even
correct.” Main v. Ozark Health, Inc., 959 F.3d 319, 325
(8th Cir. 2020) (quoting Wilking v. Cty. of Ramsey, 153
F.3d 869, 873 (8th Cir. 1998)). “[F]ederal courts do not
sit as a super-personnel department that reexamines
an entity’s business decisions. Rather, our inquiry is
limited to whether the employer gave an honest explanation of its behavior.” Wilking, 153 F.3d at 873
(cleaned up).
“Under the ADEA at the pretext stage, ‘proof that
the explanation is false is necessary. . . .’ ” Tramp, 768

App. 10
F.3d at 804 (quoting Tusing v. De Moines Indep. Cmty.
Sch. Dist., 639 F.3d 507, 516 (8th Cir. 2011)). But more
is also needed. Id. “[T]he plaintiff must [also] show . . .
that age discrimination was the real reason.” Id. (first
alteration in original) (quoting Tusing, 639 F.3d at
516). Because “[t]he burden to prove pretext ‘merges
with the ultimate burden of persuading the court that
[Canning was] the victim of intentional discrimination,’ ” Smith v. URS Corp., 803 F.3d 964, 968 (8th Cir.
2015) (quoting Torgerson, 643 F.3d at 1046), the plaintiff “must do more than simply create a factual dispute
as to the issue of pretext; he must offer sufficient evidence for a reasonable trier of fact to infer discrimination,” Mathews v. Trilogy Commc’ns, Inc., 143 F.3d
1160, 1165 (8th Cir. 1998). “The ultimate question is
whether the employer intentionally discriminated. . . .”
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 146 (2000). Thus, Canning’s age must have been
“the factor that made a difference” as to whether or not
she was terminated. Tramp, 768 F.3d at 801.
Canning argues that the district court’s summaryjudgment order erred in concluding that pretext was
not established. She gives two reasons: (a) Reeves precludes district courts from determining the propriety
of summary judgment after an employer has offered a
legitimate, nondiscriminatory reason for termination;
and (b) Creighton’s explanation for termination was
false because (i) it was not Creighton’s policy or practice to respond by terminating her, (ii) she was meeting Creighton’s reasonable expectations at the time of

App. 11
termination, and (iii) Creighton treated similarly situated coworkers differently.
a.

Reeves Analysis

Canning’s first contention is incorrect. Reeves does
not preclude district courts from determining the propriety of summary judgment after an employer has
offered a legitimate, nondiscriminatory reason for termination. Reeves does not mandate submission to the
jury in every case where pretext is at issue. Although
Reeves allows the jury to infer discrimination from the
falsity of an employer’s explanation, it does not prevent
a court from entering summary judgment when no rational factfinder could conclude that the action was discriminatory. See Reeves, 530 U.S. at 148.
b.

Falsity

We also reject Canning’s second argument that
summary judgment was improper. She asserts that
there is an issue of fact regarding whether Creighton’s
reason was false, demonstrated by: (i) Creighton’s contravention of its policy or practice; (ii) Canning’s compliance with Creighton’s reasonable expectations at
the time of termination; and (iii) Creighton’s differential treatment of Canning compared to similarly situated coworkers.

App. 12
i.

Employer’s Policy or Practice

An “employee may demonstrate pretext by showing that ‘it was not the employer’s policy or practice
to respond to such problems in the way it responded
in the plaintiff ’s case.’ ” Ridout v. JBS USA, LLC, 716
F.3d 1079, 1084 (8th Cir. 2013) (quoting Erickson v.
Farmland Indus., Inc., 271 F.3d 718, 727 (8th Cir.
2001)). Canning argues that summary judgment was
improper because it was not Creighton’s policy or practice to respond to these types of near-miss incidents by
terminating the resident responsible. However, she
fails to show this.
She cites the testimony of two doctors to show that
Creighton had a practice not to terminate residents
who failed to prescribe a drug. However, neither doctors’ testimony supports her position. Dr. Timothy J.
Griffin specifically stated, “I don’t know what” the
Committee does with residents who make a prescription error. Index in Opp’n to Mot. for Summ. J., Dr. Griffin’s Dep., at 15, Canning v. Creighton Univ., No. 4:18cv-03023-JMG-CRZ (D. Neb. 2019), ECF No. 53-5. And
Dr. Joleen Fixley “could not remember the last time”
that a resident made a “clerical” prescription error because it occurred “so infrequent[ly].” Index in Opp’n to
Mot. for Summ J, Dr. Fixley’s Dep., at 5, Canning v.
Creighton Univ., No. 4:18-cv-03023-JMG-CRZ (D. Neb.
2019), ECF No. 53-7. Moreover, neither doctor was a
Committee member and, therefore, did not participate
in termination decisions. Thus, neither doctors’ testimony establishes that it was against Creighton’s policy

App. 13
to terminate a resident who failed to prescribe the appropriate medication upon discharge.
ii.

Employer’s Reasonable Expectations

“[A] strong showing that the plaintiff was meeting
his employer’s reasonable expectations at the time of
termination may create a fact issue as to pretext when
the employer claims that the employee was terminated
for poor or declining performance.” Ridout, 716 F.3d at
1084.
Canning argues that she was meeting Creighton’s
reasonable expectations of first-year residents. However, she fails to make “a strong showing,” id., by
emphasizing supervisors’ statements that she was
“performing at an average level,” and “acceptable for a
first year resident,” Appellant’s Br. at 41, 42 (citing Dr.
Griffin’s testimony and Dr. Peter T. Silberstein’s evaluation). “Average” and “acceptable” performance, Appellant’s Br. at 41, 42, is not “evidence of a strong
employment history,” Main, 959 F.3d at 326 (quoting
Strate v. Midwest Bankcentre, Inc., 398 F.3d 1011, 1020
(8th Cir. 2005)). But even if it was, “evidence of a strong
employment history will not alone create a genuine issue of fact regarding pretext and discrimination.” Id.
(quoting Strate, 398 F.3d at 1020) (emphasizing that
the “culminating event”—rude and insubordinate behavior in a meeting—that led to the employee’s termination occurred after she received positive year-end
evaluations). As in Main, the “culminating event”—
the patient near-miss—here occurred after Canning

App. 14
received any positive evaluations or feedback, and she
concedes it was a serious error. See id.
iii.

Similarly Situated Coworker Inquiry

Finally, Canning attempts to establish pretext using the similarly situated coworker inquiry. But this
inquiry requires proof “that the other employees were
‘similarly situated in all relevant respects.’ ” Ridout,
716 F.3d at 1085 (quoting Lynn v. Deaconess Med. Ctr.W. Campus, 160 F.3d 484, 487 (8th Cir. 1998)). The comparators must have had violations of “comparable seriousness.” Id. (emphasis omitted) (quotation omitted).
And “[t]he comparators ‘must have dealt with the same
supervisor, have been subject to the same standards,
and engaged in the same conduct without any mitigating or distinguishing circumstances.’ ” Ebersole v. Novo
Nordisk, Inc., 758 F.3d 917, 925 (8th Cir. 2014) (quoting
Burton v. Ark. Sec’y of State, 737 F.3d 1219, 1230 (8th
Cir. 2013)). Here, however, Canning has not provided
any evidence of other residents similarly situated in all
respects.
Because Canning has not shown that Creighton’s
reason for termination was pretextual, the district
court’s entry of summary judgment for Creighton on
Canning’s age-discrimination claim was not erroneous.
B.

Disability Discrimination

Canning argues that Creighton regarded her as
disabled and discriminated against her based on her

App. 15
alleged disability. We affirm summary judgment in favor of Creighton on Canning’s disability-discrimination claim.
The ADA prohibits employers from discriminating
against their employees on the basis of a disability. 42
U.S.C. § 12112(a). As with Canning’s ADEA claim, we
evaluate her wrongful-termination claim under the
ADA using the McDonnell Douglas framework because
she has not offered direct evidence of discrimination.
See Ryan v. Cap. Contractors, Inc., 679 F.3d 772, 776-77
(8th Cir. 2012); see supra Section ILA.
First, Canning must establish a prima facie case
under the ADA, showing three elements: (1) she was
disabled or regarded as a disabled person under the
ADA, (2) she “was qualified to perform the essential
functions of the job,” and (3) she “suffered an adverse
employment action under circumstances giving rise to
an inference of unlawful discrimination.” Ryan, 679
F.3d at 777 (quoting Kozisek v. Cnty. of Seward, 539
F.3d 930, 934 (8th Cir. 2008)).
The district court concluded that Canning did not
make a prima facie case under the ADA. We agree.5
5

The district court also noted that what Canning asserted as
a disability was unlikely a qualifying disability under the ADA
because “the cognitive functioning required of a first-year internal
medicine resident far exceeds that required of an average person
in the general population.” Canning, 2019 WL 4671180, at *10.
We do not address this specific issue. Instead, we assume that
Canning’s proffered disability qualifies as a disability within the
ADA and conclude that Creighton did not regard Canning as disabled.

App. 16
The first element requires the plaintiff to show that
she was a disabled person, or a person regarded as disabled, within the meaning of the ADA. A “disability” is:
“a physical or mental impairment that substantially
limits one or more major life activities of [an] individual,” “a record of such an impairment,” or “being regarded as having such an impairment.” 42 U.S.C.
§ 12102(1). “The ‘ability to perform cognitive functions
on the level of an average person’ constitutes a major
life activity. Accordingly, thinking and concentrating
qualify as ‘major life activities’ under the ADA.” Battle
v. UPS, Inc., 438 F.3d 856, 861 (8th Cir. 2006) (first
quoting Brown v. Lester E. Cox Med. Ctrs., 286 F.3d
1040, 1045 (8th Cir. 2002); and then quoting Shaver v.
Indep. Stave Co., 350 F.3d 716, 720 (8th Cir. 2003)).
Canning argues that Creighton regarded her as disabled.
Under the ADA, an employee is “regarded as having . . . an impairment” if he or she establishes that the
employer has subjected the individual “to an action
prohibited under [the ADA] because of an actual or
perceived physical or mental impairment whether or
not the impairment limits or is perceived to limit a major life activity.” 42 U.S.C. § 12102(3)(A). Thus, a person
is regarded as disabled if her employer mistakenly believes that she has a physical impairment that substantially limits one or more major life activities or
mistakenly believes that an actual, non-limiting impairment substantially limits one or more major life
activities. Brunko v. Mercy Hosp., 260 F.3d 939, 942
(8th Cir. 2001).

App. 17
In support of her claim, Canning primarily cites
events that occurred during her initial first year of residency Importantly, the adverse-employment action at
issue is her termination in January 2017. Even if
Creighton regarded her as disabled in December 2015,
Canning must show that Creighton regarded her as
disabled when it terminated her in January 2017. She
has not.
Before Creighton allowed Canning to return to repeat her intern year, two doctors evaluated her. Their
assessments ruled out any kind of disorder. Dr. Callahan specifically evaluated Canning for fitness for duty
as a condition of her return. As a result of his evaluation, Creighton allowed Canning to return to the program. Thus, Canning has not shown any genuine
dispute of material fact as to whether Creighton (or its
decisionmakers) regarded her as disabled during her
second year at Creighton and that it terminated her as
a result. Thus, we affirm.
C.

Retaliation

Lastly, Canning asserts that Creighton retaliated
against her for engaging in protected activity when it
dismissed her from the residency program in January
2017. She points to two protected activities: (1) Canning authorized her attorney to send Creighton a letter
in March 2016, complaining that Creighton violated
Canning’s rights under the ADA; and (2) Canning filed
a complaint against another medical resident.

App. 18
A retaliation claim under the ADA also requires
either direct evidence of retaliation or an inference of
retaliation under the McDonnell Douglas burdenshifting framework. Hustvet v. Allina Health Sys., 910
F.3d 399, 412 (8th Cir. 2018). Specifically, in retaliation
cases the appellant must have made a prima facie case
showing three elements: “(1) [she] engaged in statutorily protected activity; (2) the employer took an
adverse action against [her]; and (3) . . . a causal connection [existed] between the adverse action and the
protected activity.” Id. As with her ADEA claim, Canning retains the burden of persuasion regarding butfor causation. Id. If Canning made a prima facie
case, then the burden would shift to Creighton to produce a non-retaliatory reason for the discharge. Id.
If Creighton produced such a reason, Canning then
would then regain the burden of production to present
evidence that the proffered reason was pretext for retaliation. Id.
The district court did not err when it granted summary judgment in Creighton’s favor regarding the retaliation claim.
1.

The Letter from Canning’s Attorney

The parties do not dispute the first two prima facie
elements. The district court granted summary judgment after concluding Canning did not show proof of
the third element: that a causal connection existed
between her attorney’s letter and her January 2017

App. 19
dismissal. We hold that Canning failed to satisfy the
third element.
In general, if evidence shows that the defendant
would have terminated the employment whether or
not the employee exercised her rights, the employer
faces no liability. See Ebersole, 758 F .3d at 923-24.
Here, Canning asks us to hold that a jury could reasonably impose liability on an employer who gave the
plaintiff what she wanted (re-employment) as a result
of her protected activity. We decline to do so.
Here, the evidence shows that Creighton would
have terminated Canning’s employment in January
2017 whether or not her attorney sent Creighton a letter in March 2016. Creighton did not terminate Canning until she made a serious patient-safety error
while she was on probation in December 2016.
Moreover, Canning’s protected activity led to a
benefit rather than an adverse action. At the time, the
Committee had informed Canning in February 2016
that her contract would not be renewed. Canning then
engaged in protected activity via her attorney in
March 2016. Because of Canning’s attorney’s letter and
subsequent negotiations with Creighton’s counsel, in
April 2016 Creighton agreed to let Canning return in
July 2016 to repeat her intern year, conditioned on her
passing a fit-for-duty evaluation.
Rather than retaliation, Canning’s attorney’s letter obtained her readmission into the program. Accordingly, there is no causal connection between her
attorney’s letter in March 2016 and Creighton’s

App. 20
termination of Canning—10 months later—in January
2017. Thus, we agree with the district court that Canning’s retaliation claim fails because she has not established a prima facie case.
2. Cannings Complaint
Against Another Medical Resident
Finally, Canning argues that the “district court
erred in finding that a jury could not conclude that
Defendant retaliated for Plaintiff ’s discrimination
complaint against [fellow medical resident] Goyal.”
Appellant’s Br. at 59. However, the district court never
made this conclusion because Canning never raised
this issue. Therefore, we decline to consider it on appeal. See Ames v. Nationwide Mut. Ins. Co., 760 F.3d
763, 770 (8th Cir. 2014) (“[A] party may not raise an
issue for the first time on appeal as a basis for reversal.” (quotation omitted)).
III.

Conclusion

For these reasons, we affirm the grant of summary
judgment in Creighton’s favor.

App. 21
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
-----------------------------------------------------------------------

No: 19-3286
-----------------------------------------------------------------------

Mary E. Canning
Plaintiff - Appellant
v.
Creighton University
Defendant - Appellee
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for
the District of Nebraska - Lincoln
(4:18-cv-03023 -JMG)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JUDGMENT
(Filed Apr. 21, 2021)
Before SMITH, Chief Judge, LOKEN, and GRUENDER,
Circuit Judges.
This appeal from the United States District Court
was submitted on the record of the district court, briefs
of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this

App. 22
cause is affirmed in accordance with the opinion of this
Court.
April 21, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 23
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
MARY E. CANNING,
Plaintiff,
vs.
CREIGHTON UNIVERSITY,
Defendant.

4:18-CV-3023
MEMORANDUM
AND ORDER
(Filed Sep. 25, 2019)

The plaintiff, Dr. Mary Elizabeth (Mary Beth)
Canning, alleges in her amended complaint claims of
discrimination based on age pursuant to 29 U.S.C.
§ 623(a)(1) and Neb. Rev. Stat. § 48-1004, disability
pursuant to 42 U.S.C. § 12112(a) and Neb. Rev. Stat.
§ 48-1104(1), national origin pursuant to 42 U.S.C.
§ 2000e-2(a)(1) and Neb. Rev. Stat. § 48-1104(1), and
retaliation pursuant to 42 U.S.C. § 12203(a) and Neb.
Rev. Stat. § 48-1114. Filing 21. The defendant, Creighton University, has moved for summary judgment regarding all claims. Filing 45. The Court will grant
the defendant’s motion and dismiss the plaintiff ’s
amended complaint.
I.

STANDARD OF REVIEW

Summary judgment is proper if the movant shows
that there is no genuine dispute as to any material fact
and that the movant is entitled to judgment as a matter of law. See Fed. R. Civ. P. 56(a). On a motion for summary judgment, facts must be viewed in the light most
favorable to the nonmoving party only if there is a

App. 24
genuine dispute as to those facts. Torgerson v. City of
Rochester, 643 F.3d 1031, 1042 (8th Cir. 2011) (en
banc). Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences
from the evidence are jury functions, not those of a
judge. Id. But the nonmovant must do more than
simply show that there is some metaphysical doubt as
to the material facts. Id. In order to show that disputed
facts are material, the party opposing summary judgment must cite to the relevant substantive law in identifying facts that might affect the outcome of the suit.
Quinn v. St. Louis County, 653 F.3d 745, 751 (8th Cir.
2011). The mere existence of a scintilla of evidence in
support of the nonmovant’s position will be insufficient; there must be evidence on which the jury could
conceivably find for the nonmovant. Barber v. C1 Truck
Driver Training, LLC, 656 F.3d 782, 791-92 (8th Cir.
2011). Where the record taken as a whole could not
lead a rational trier of fact to find for the nonmoving
party, there is no genuine issue for trial. Torgerson, 643
F.3d at 1042.
II.

BACKGROUND

The plaintiff graduated from Vassar College with
a Bachelor of Arts in philosophy in 1979. In 1981, she
earned a master’s degree in accounting from Bentley
College in Waltham, Massachusetts. Filing 46-1 at 3.
After graduating from Bentley, she worked as a credit
analyst at Depositors Trust Company in Augusta,
Maine, and continued working in the financial services
industry for a variety of employers for around twelve

App. 25
years. In 1993, the plaintiff joined her family’s business, a wholesale distributor for convenience stores. After five years in the family business, and now in her
late thirties, the plaintiff decided to go back to school.
In 2003, the plaintiff earned a Bachelor of Science in
biology from the University of Southern Maine. Filing
46-1 at 3-4. She next attended medical school in Ireland at University College Dublin, graduating in 2008.
Filing 46-1 at 3. After earning her medical degree, the
plaintiff experienced a period of personal and family ill
health. In 2011, she resumed her medical studies with
Kaplan Medical in Chicago, where she prepared for the
first two of the three required step examinations that
she had to pass before she could be accepted into a residency program. Filing 46-1 at 5. In 2013 the plaintiff
participated in a hospital-based program (but not a
residency program) at Drexel University Hahnemann
Hospital in Philadelphia. This program was for physicians who were from foreign medical schools or who
had been out of practice for a period of time. Filing 461 at 3, 5-6.
The plaintiff was accepted into Creighton’s residency program in 2014. Filing 46-1 at 7. It was her second attempt at obtaining placement in a residency
program. Prior to her acceptance, the plaintiff interviewed with Drs. Erica Cichowski, Carrie Valenta and
Eric Peters in December 2014, and began her responsibilities as a first-year internal medicine resident on
July 1, 2015. Filing 46-1 at 8-9. The plaintiff was now
a fifty-seven-year-old first-year internal medicine resident. Filing 21 at 1-2.

App. 26
An in-service examination is given to all residents
in July. Filing 46-1 at 34-35, filing 46-15 at 4. The plaintiff scored in the lowest 15 percent in the country. In
November 2015, a supervising resident reported to
Program Director Dr. Tammy Wichman that the plaintiff was struggling. Filing 46-1 at 12. The plaintiff met
with Dr. Wichman and Dr. Bradley DeVrieze, and admitted that she was feeling overwhelmed trying to
complete her duties. Filing 46-1 at 12-13. In December
Dr. Jason Lambrecht evaluated the plaintiff ’s performance and expressed concerns about her basic skills
and level of competence. Filing 46-1 at 11. The concern
with the plaintiff ’s level of competence was generally
attributed to her perceived limitations with memory. A
third-year supervising resident made a joke on one occasion concerning the plaintiff ’s memory lapse, calling
it dementia. Filing 46-1 at 15. Although the plaintiff
understood the comment to be a joke (filing 46-1 at 16),
she nonetheless found the comment to be demeaning.
Filing 53-9 at 51.
First-year residents train under the direct supervision of physicians at hospitals and clinics affiliated
with the defendant. Filing 46-15 at 2. The residents are
evaluated by the faculty physicians, usually every four
weeks. Filing 46-15 at 3. The Clinical Competency
Committee is responsible for overseeing the evaluation
process and the resident’s progress. Relevant members
of the Committee for the purposes of this matter included Dr. Cichowski, Dr. DeVrieze, Dr. Wichman, and
Dr. Theresa Townley. On December 18, 2015, the Committee met to review the progress of all residents in the

App. 27
program. Filing 46-3 at 1. The Committee determined
that the plaintiff had not progressed in several areas
such that she could transition to the next level of training. In a letter dated January 22, 2016 the plaintiff was
advised that she would be required to repeat her first
year of training under the direct supervision of Dr.
Townley. The letter outlined several deficiencies and
the expected milestones that the plaintiff must achieve
in order to progress to the next level.
The plaintiff met with Drs. Wichman, DeVrieze,
and Cichowski on January 22 to discuss the Committee’s decision to have her repeat the first year. Filing
46-1 at 12. The plaintiff agreed with the Committee’s
decision and felt that it would be beneficial for her to
repeat the first year. Filing 46-1 at 1314. The plaintiff
said that there was a discussion on what could be done
to help her learn, and that Dr. Cichowski asked her if
she would be willing to meet with a psychologist, Dr.
Geoffrey Anderson. Filing 46-1 at 16, filing 46-15 at 45.
The plaintiff believed that Dr. Anderson would be like
a learning skills coach. Filing 46-1 at 16. Dr. Anderson
contacted the plaintiff by email on February 9, reporting that he had been contacted by the Committee to
meet with her and facilitate a plan of remediation for
her when she repeats her first-year residency program.
Dr. Anderson asked the plaintiff to schedule a time to
meet. Filing 46-4.
The plaintiff asked Dr. Cichowski to be her faculty
mentor, and Dr. Cichowski agreed. They would meet or
have telephone conferences regularly. On February 12,
Dr. DeVrieze told the plaintiff that he would be

App. 28
attending her meeting with Dr. Cichowski set for later
that day. Filing 46-1 at 16. Dr. Cichowski’s documentation of that meeting indicates that she and Dr.
DeVrieze told the plaintiff that they had grave concerns that her knowledge and experience gap may be
too large to overcome. Filing 46-15 at 7. The plaintiff
was told that the chief residents have been expressing
concerns about her performance since August 2015.
The plaintiff said that in this meeting Dr. DeVrieze
asked her if she had a memory problem, and said
that Dr. Lambrecht had mentioned something about
the plaintiff ’s memory issues. Filing 46-1 at 16. Dr.
DeVrieze also asked the plaintiff if she had met with
Dr. Anderson yet.
On February 13, the day after her meeting with
Dr. DeVrieze, the plaintiff responded to Dr. Anderson’s
February 9 email. Filing 46-4. The plaintiff then had
her meeting with Dr. Anderson on February 16. The
plaintiff said that after introducing himself, Dr. Anderson told her that he was going to develop a plan for her
to learn certain things that she needed to learn. Filing
46-1 at 18. Dr. Anderson brought up neurocognitive
testing. The plaintiff asked, “what if the testing came
up negative?” According to the plaintiff, Dr. Anderson
said, “well, we’re going to keep testing you.” The plaintiff said that Dr. Anderson started a line of persistent
questioning about how she understood the difficulties
that she was having. The plaintiff indicated that Dr.
Anderson’s questioning frustrated and flustered her.
According to the plaintiff, near the end of the meeting

App. 29
Dr. Anderson told her, “you don’t understand what they
are trying to do to you.” Filing 46-1 at 18.
Dr. Anderson documented his meeting with the
plaintiff in a brief note in which he expressed his and
the Committee’s concerns. Filing 53-8 at 5. He reported
that there were concerns about the plaintiff ’s capacity
to learn and retain complex and abstract information,
and whether this problem was due to an organic cause
such as dementia, or a functional cause such as anxiety
or substance abuse. Dr. Anderson noted several deficiencies in the plaintiff ’s knowledge base such as the
basic hospital infrastructure, use of the computer system, and the ability to synthesize facts and data so as
to diagnose a condition and formulate a care plan. Dr.
Anderson acknowledged that the plaintiff did not report any unusual stressors, but that she felt overwhelmed much of the time. Dr. Anderson concluded
that there was reason to be concerned that the plaintiff
could make a critical error in patient care leading to
injury or death. Filing 53-8 at 5.
On February 18, the plaintiff met with Dr.
Cichowski and Dr. Joann Porter, the Associate Dean of
Graduate Medical Education. Filing 46-15 at 5. Dr.
Cichowski informed the plaintiff that the Committee
had made two further decisions regarding her residency. Filing 46-15 at 8. First, the plaintiff was to be
put on a leave of absence with pay until a fitness-forduty evaluation deemed her safe for patient care. The
evaluation was to be scheduled as soon as possible and
if she were deemed fit, she could return to finish her
first year and receive credit. The plaintiff said that Dr.

App. 30
Porter compared this fitness evaluation to the kind of
evaluations that pilots undergo. Filing 46-1 at 19, 4243. Second, the Committee decided that instead of having the plaintiff repeat the first year, it was in her best
interests that her contract to remain in the program
not be renewed. Dr. Cichowski explained that these
two decisions were separate issues. Even if the plaintiff were deemed fit for duty, she would not be eligible
for the renewal of her contract. The decision to not renew her contract was based on the plaintiff ’s inability
to progress in terms of skill and competency during her
first year. At the end of the meeting, the plaintiff was
given a letter confirming that her contract would not
be renewed. Filing 46-7. She was also advised that she
had a right to appeal the non-renewal decision, and
was given copies of the defendant’s Corrective Action
Policy and Resident Due Process Policy. Filing 46-15 at
8.
On February 26, the plaintiff emailed Dr. Anderson to request a copy of the record or assessment that
he had made of their meeting. Filing 46-5. Dr. Anderson responded that same day, advising the plaintiff
that their February 16 meeting was not an evaluation
or assessment. Filing 46-6. Instead, the meeting, according to Dr. Anderson, was to determine how the
plaintiff understood the learning difficulties she was
experiencing and if there was a need for a fitnessfor-duty evaluation. Dr. Anderson felt a referral for a
clinical evaluation of possible cognitive impairments
would be beneficial. He also emphasized again what
the plaintiff was told in the February 18 meeting—that

App. 31
any fitness-for-duty evaluation would not change the
decision to not renew her contract. Filing 46-6.
The plaintiff filed a grievance, dated February 27,
2016, addressed to Dr. Porter. Filing 46-9. The grievance focused on the plaintiff ’s interactions with the
third-year supervising resident, a native of India, who
had made the joke about the plaintiff ’s dementia. The
plaintiff described several disagreements, both personal and professional, she had with this supervising
resident, and how she had to deal with his several mistruths. Filing 46-9.
In a letter dated March 7 and addressed to Dr.
Cichowski, attorney Edward F. Pohren advised that he
was consulting with the plaintiff regarding the actions
of February 18. Filing 53-9 at 22-25. Pohren was critical of the plaintiff ’s meeting with Dr. Anderson, and
characterized the meeting as an unconsented-to mental health evaluation or assessment. Pohren repeated
the several deficiencies that Dr. Anderson noted in his
report, and argued that by relieving the plaintiff of
her duties, the defendant had violated the plaintiff ’s
rights pursuant to the Americans with Disabilities Act
(ADA), in that the plaintiff was being regarded as a
person with an impairment involving mental health.
Pohren objected to the fitness-for-duty evaluation that
had been scheduled with Dr. Ty Callahan, arguing that
the evaluation was contrary to the protections found in
the ADA. Pohren requested that the defendant rescind
all of the adverse actions taken on February 18 without
the need for an appeal hearing or further process.

App. 32
In an April 6 letter, the defendant’s general counsel,
James Jansen, acknowledged speaking with Pohren,
and proposed a resolution to the plaintiff ’s situation.
Filing 53-9 at 44. In pertinent part, Jansen’s proposal
called for the plaintiff to submit to a fit-for-duty evaluation arranged by the defendant, and if the plaintiff
was cleared for duty, she would be permitted to repeat
her first-year residency in the defendant’s internal
medicine program. Pohren responded in a letter dated
April 14, and advised Jansen that the plaintiff had undergone a full wellness examination with a specific request to look for dementia issues, and was tested by a
neuropsychologist for neurocognitive deficits or a psychological disorder that would interfere with her competency. Filing 53-9 at 46. He reported that the testing
ruled out any kind of disorder, and that he would be
willing to share these results if the plaintiff were reinstated to full-time duty and permitted to repeat her
first year of residency. The neuropsychologist who evaluated the plaintiff was Colleen Connolly. Filing 46-1 at
23.
Although Pohren’s letter did not specifically address Jansen’s proposal for a fitness evaluation by Dr.
Callahan, the plaintiff was evaluated by Dr. Callahan
on May 27. Filing 53-8 at 12-15. Dr. Callahan’s report,
dated June 7, indicates that the plaintiff brought a
copy of Dr. Connolly’s report with her to the evaluation,
which Dr. Callahan reviewed along with the defendant’s referral request. Dr. Callahan reported that his
examination and testing lasted for about five and a
half hours. His conclusion was that he did not find any

App. 33
evidence of a medical or psychiatric condition compared to peers similar in age, gender, and education.
Filing 53-8 at 14. Dr. Callahan did, however, conclude
that the plaintiff likely experienced mild limitations in
synthesizing pieces of information into a coherent
whole, in making complex decisions, and with respect
to the level of abstract reasoning expected of a firstyear resident. Filing 53-8 at 14.
A special meeting of the Clinical Competency
Committee was held on June 15, 2016. Creighton’s Associate General Counsel Andrea Jahn announced to
the attendees that the plaintiff will return to the program effective July 1 to repeat her first year of residency. Filing 53-8 at 17. A report of the meeting
prepared by program administrator Julie Nelson, indicates that the plaintiff was aware that she was on a
verbal performance improvement plan. Nelson’s report
also outlined certain measures the core faculty members were to follow with respect to the plaintiff ’s return, including a reminder that all evaluations must
be performance-based with objective language only.
The plaintiff claims that she was not told she was on a
performance improvement plan. Filing 461 at 35-36,
filing 53-9 at 56.
When asked if she was enthusiastic about getting
back into the residency program, the plaintiff responded that she was very enthusiastic. The plaintiff
was required to take the same in-service examination
she took the year before, and this time her score was
even worse, scoring in the seventh percentile. Filing
46-1 at 35, filing 46-15 at 5. Notes from attending

App. 34
physicians indicate that the plaintiff continued to
struggle with her fund of medical knowledge, the completion of assessments, and development of care plans.
A note dated September 16, 2016, by Dr. Nathan Birch
reported that the plaintiff cared very deeply about the
people she sees, but her organizational and knowledge
base were concerning. Dr. Birch reported that in July
and August, the plaintiff had difficulties with distinguishing shoulder and back pain, the diagnosis of skin
conditions, and developing care plans for other conditions. Filing 46-11 at 9. On July 22, Dr. Carolyn Manhart reported that the plaintiff needed supervision in
taking all the information that she had gathered and
coming up with a specific plan of action, but that her
bedside manner and communication skills were very
good. Filing 46-11 at 8. In a note dated August 26, Dr.
Mahmoud Abu Hazeem reported that the plaintiff had
a positive attitude, was hard working, and had a good
rapport with patients, but overall her competency level
was below her peer averages, and that she required
more supervision and assistance to finish her duties.
Filing 46-11 at 6.
On September 23, the plaintiff was notified that
the Clinical Competency Committee had met on September 14 to review her evaluations since beginning
the current academic year, and that based on those reports, the Committee decided to place her on under-review status. Filing 46-12. The notice identified nine
separate deficiencies that led to the Committee’s decision, what the plaintiff would be required to do to correct the deficiencies, and the improvements that the

App. 35
Committee expected to see by November 20. The notice
also advised the plaintiff that if an incident occurred
during the under-review period that was grounds for
probation or termination, she could be placed on probation or terminated immediately. Filing 46-12 at 3.
On December 20, the plaintiff was notified that she
was being placed on probation status. Filing 4613. This
notification, again, detailed the deficiencies leading to
her probationary status, including specific incidents of
deficiencies as reported by attending physicians. The
notification also advised the plaintiff about the specific
steps that must be taken to correct her deficiencies.
In a document dated January 3, 2017, the plaintiff
was notified that the Committee had recommended her
dismissal from the residency program. Filing 46-14.
The reason for her dismissal stemmed from what was
described as “a significant patient safety near miss,”
which occurred due to the plaintiff ’s error of omission
despite direct supervision from her supervisor and attending physician. Filing 46-14 at 1. The patient safety
incident involved the plaintiff ’s failure to discharge a
patient with a history of chronic pulmonary embolism
on the proper anticoagulant agent after the patient
had failed the Coumadin she had been on. Filing 46-14
at 1; filing 53-9 at 16; filing 53-9 at 18-19. Fortunately,
the plaintiff ’s error was caught by a nurse and corrected before the patient was actually discharged.
The plaintiff disagrees with the evaluations she
was given, and disputes the accuracy of the accounts of
the deficiencies attributed to her work, as well as the
accuracy of the alleged patient safety incident report.

App. 36
See filing 53-9 at 56-59. After her termination, some
attending physicians submitted letters supporting the
plaintiff. Filing 53-8 at 34, 36, 38. The plaintiff asserts
that she was treated differently from the other firstyear residents when she returned to the program in
July 2016. Filing 46-1 at 33-34. The plaintiff also alleges that Dr. Cichowski and others did not follow
the relevant policies with respect to the disciplinary
measures imposed in 2016 and with respect to her termination from the program in January 2017. Filing 539 at 57-60.
III.
1.

DISCUSSION

AGE DISCRIMINATION1

The Age Discrimination in Employment Act prohibits discrimination against employees that are at
least 40 years of age. 29 U.S.C. §§ 623(a) & 631(a). The
plaintiff ’s prima facie case requires proof that she:
(1) was at least 40 years old, (2) she met the applicable
job qualifications, (3) she suffered an adverse employment action, and (4) there is some additional evidence
that age was a factor in the termination decision.
Tramp v. Associated Underwriters, Inc., 768 F.3d 793,
800 (8th Cir. 2014). To establish a claim of age discrimination, the plaintiff must prove by a preponderance of
the evidence, which may be direct or circumstantial,
1

Age discrimination claims under the Nebraska Fair Employment Practices Act and Title VII share a common analysis.
Ryan v. Capital Contractors, Inc., 679 F.3d 772, 777 n.3 (8th Cir.
2012).

App. 37
that age was the but-for cause of the challenged employer decision. Id. Here, the employer decision that
the plaintiff challenges is her termination from the defendant’s postgraduate medical education program.
See filing 52 at 42, filing 21 at 9.
Direct evidence is evidence indicating a specific
link between the asserted discriminatory intent and
the adverse employment action sufficient to support a
finding by a reasonable fact finder that a discriminatory intent actually motivated the adverse employment action. King v. United States, 553 F.3d 1156, 1160
(8th Cir. 2009). The plaintiff ’s argument regarding
direct evidence of age discrimination focuses on the
comment by the third-year resident joking that the
plaintiff had dementia, and the several comments by
attending physicians regarding the plaintiff ’s slow
pace of completing her assigned duties. Filing 52 at 42.
The dementia comment, even though all agree it
was intended as an ill-advised joke, and to the extent
dementia directly implicates age, was at best a stray
remark made by a non-decisionmaker. But, stray remarks, statements by non-decisionmakers, and decisionmaker statements unrelated to the decisional
process do not constitute direct evidence. Id. Even if
the dementia comment would reflect an age animus,
there is no evidence that a member of the Clinical
Competency Committee, in any way, factored the dementia comment into the decision to terminate the
plaintiff from the program. When asked to identify how
she was a victim of age discrimination, the plaintiff
said that age was a factor in the March 2016 decision

App. 38
to not renew her contract. Filing 46-1 at 42-43. However, the decision to terminate the plaintiff from the
program occurred in January 2017, in response to the
report of an error affecting patient safety. Filing 46-14.
Even if age was somehow a factor in the contract nonrenewal decision, it was not a factor in the termination
decision made several months later. As such, there is
no direct but-for causation between the claimed evidence of age discrimination, and the adverse employment decision. Also, although there is evidence that the
plaintiff ’s slow pace at completing her assigned duties
was a factor in placing her under review and on probation, there is no direct evidence the plaintiff ’s pace motivated her termination from the program.
In the absence of direct evidence of age discrimination, the plaintiff may present evidence that creates
an inference of discrimination under the McDonnell
Douglas burden-shifting framework. Tramp, 768 F.3d
at 800. Under this framework, the plaintiff first must
establish a prima facie case of age discrimination.
Once a prima facie case is established, the burden of
production shifts to the defendant to articulate a legitimate nondiscriminatory reason for its adverse employment action. If the defendant does so, the plaintiff
must show that the defendant’s proffered reason was a
pretext. Rahif v. Mo-Tech Corp., 642 F.3d 633, 637 (8th
Cir. 2011).
The defendant argues that the plaintiff cannot establish a prima facie case because the plaintiff was not
qualified to continue in the residency program. Filing
47 at 29-30. The defendant is ignoring that this is the

App. 39
defendant’s motion for summary judgment, and the indirect evidence of a prima facie case is viewed in a light
most favorable to the plaintiff. The burden of establishing a prima facie case of discrimination is not onerous.
Tex. Dep’t. of Cmty. Affairs v. Burdine, 450 U.S. 248, 253
(1981). A plaintiff need only show that he or she possesses the basic skills necessary to perform the job, not
that he or she is doing the job satisfactorily. McGinnis
v. Union Pacific R.R., 496 F.3d 868, 874 n.2 (8th Cir.
2007).
Although the plaintiff received several evaluations that justified placing her under review, and subsequently on probation, there were also attending
physicians who found the plaintiff ’s work to be satisfactory. For example, Dr. Peter Silberstein reported
that the plaintiff ’s knowledge at the end of her rotation in hematology/oncology was acceptable for a firstyear resident and that she was one of the better residents in terms of completing all assignments. Filing
53-8 at 7. Letters of support from Dr. Jennifer Green
(filing 53-8 at 10), Dr. Carolyn Manhart (filing 53-8 at
34), Dr. Joleen Fixley (filing 53-8 at 36), and Dr. Timothy Griffin (filing 53-8 at 38) were equally positive regarding the plaintiff ’s work ethic, knowledge, and
skills. Accordingly, there is evidence in the record that
would allow a rational finder of fact to conclude that
the plaintiff was qualified for placement in the defendant’s residency program.
There is also evidence that would allow a rational
fact finder to infer that age was a factor in the Committee’s decision to terminate the plaintiff ’s residency.

App. 40
Contrary to the defendant’s argument, the plaintiff adduced evidence that she was treated differently from
the other younger residents, all of whom were under
the age of 40. For example, several doctors acknowledged that other younger residents were put under review for medical knowledge and other reasons, but
were not terminated from the program. Filing 53-1 at
2324. No other younger resident was required to submit to fitness-for-duty testing. Filing 53-2 at 11; filing
53-5 at 8-9. To their knowledge, no other younger resident was terminated for making an “error of omission”2
on a patient discharge. Filing 53-2 at 29-30; filing 53-5
at 15. The burden of establishing a prima facie discrimination case is not onerous. To the extent that the
plaintiff ’s allegations that she was treated differently
from the younger residents are plausible, she has established her prima facie case of age discrimination.
Even assuming that the plaintiff has shown a
prima facie case of age discrimination, the defendant
has offered legitimate nondiscriminatory reasons for
terminating the plaintiff from the defendant’s residency program. The defendant has thoroughly documented the plaintiff ’s inadequate fund of medical
knowledge, her substandard clinical skills, the inability to timely perform a first-year resident’s duties, and
the plaintiff ’s apparent lack of personal resolve to deal
with the stress level a first-year internal medicine
2

The parties dispute whether the error was one of omission
or was a medical error, but for the purposes of summary judgment, the plaintiff’s view that it was an error of omission will be
adopted.

App. 41
resident is expected to endure. The defendant’s documentation indicates that the plaintiff ’s performance
in the defendant’s internal medicine residency program never progressed to the minimum standards expected of a first-year resident. See, filing 46-15 at 4-10.
Whether an error of omission or a medical error, the
defendant had a right—if not an obligation—to respond to an act or omission affecting patient safety
with termination of the responsible individual.
The burden now shifts back to the plaintiff to show
that the defendant’s proffered reasons were a mere
pretext for age discrimination. The plaintiff ’s pretext
arguments point to the same evidence the plaintiff relied on for her prima facie case. It is possible for strong
evidence of a prima facie case to also present a factual
issue on pretext. Ridout v. JBS USA, LLC, 716 F.3d
1079, 1083 (8th Cir. 2013). This is particularly true
when the employer claims that an employee was terminated for unsatisfactory performance. A strong
showing that the plaintiff was meeting the employer’s
reasonable expectations prior to, or at the time of termination may create a fact issue as to pretext for the
adverse employment action. Id. at 1084.
Here, however, no rational fact finder could conclude that the plaintiff had ever, at any time, met the
defendant’s reasonable expectations for a first-year internal medicine resident. From the beginning of her
residency, the plaintiff failed to perform up to the program’s expectations. Her initial testing showed her to
be in the lowest 15 percent of her peers. Filing 46-15 at
4. She was consistently reported to have knowledge

App. 42
deficiencies and required much more assistance and
supervision than did her peers. The Clinical Competency Committee, charged with overseeing the evaluation of the program’s medical residents according to
national standards, consistently found that the plaintiff ’s performance did not meet the expectations for a
first-year internal medicine resident. Filing 46-15 at 3.
Long before the error that resulted in the plaintiff ’s termination from the program, the Committee
determined that the plaintiff ’s deficiencies made it
necessary for her to repeat her first year of residency,
but then later determined that instead, she should
simply be let go from the program at the end of her
current first year. Filing 46-15 at 8. Intervention by the
plaintiff s legal representative resulted in the Committee reversing itself and allow the plaintiff to repeat her
first year. However, the plaintiff again severely underperformed on the required testing, and failed to meet
the expectations of many of the attending physicians
who were charged with evaluating her performance.
But even with her long history of substandard performance, the plaintiff was not discharged until she committed an error that directly affected patient safety.
Filing 46-15 at 9-10. Given the extensive record of the
plaintiff ’s deficiencies, no rational fact finder could
conclude that the plaintiff ’s termination from the program due to concerns for patient safety was pretextual,
and that age was actually the determinative factor in
the decision. See Rahif, 642 F.3d at 638.
The same is true for the plaintiff ’s claim that she
was treated differently from the younger residents.

App. 43
The plaintiff argues that other younger medical residents placed under review were given more favorable
treatment such as coaching and preparation in how to
overcome the difficulties they were having, and that
no other younger resident was singled out for psychological testing. Filing 52 at 42. The plaintiff ’s argument boils down to a similarly situated coworker
inquiry, which requires a showing that the plaintiff
was treated differently from other younger medical
residents whose deficiencies were of comparable seriousness. Ridout, 716 F.3d at 1085. The plaintiff ’s argument overlooks the reason she was terminated from
the program. She was terminated for a serious error
affecting patient safety. She was not terminated for her
substandard participation in the residency program.
For that, she was asked to repeat her first year, placed
on under-review status, and placed on probation. The
other residents that the plaintiff claims were treated
more favorably were not responsible for a serious error
affecting patient safety. The plaintiff is not comparing
apples to apples.
There can be no age discrimination when the employer’s decision is wholly motivated by factors other
than age. Tramp, 768 F.3d at 801. Here, no rational fact
finder could conclude that the defendant’s decision to
terminate the plaintiff from the internal medicine residency program was motivated by her age, and not motivated by concerns for patient safety. The defendant is
entitled to summary judgment as to the plaintiff ’s age
discrimination claim.

App. 44
2.

DISABILITY DISCRIMINATIONS3

The Americans with Disability Act makes it unlawful for the defendant to discriminate against its
medical residents on the basis of a disability. 42 U.S.C.
§ 12112(a). A disability is defined as a physical or mental impairment that substantially limits one of more
major life activities, and also includes being regarded
as having such an impairment. 42 U.S.C. § 12102(2)(A)
& (C). Major life activities are basic activities that the
average person can perform with little or no difficulty,
including caring for oneself, performing manual tasks,
walking, seeing, hearing, speaking, breathing, learning, and working. 29 C.F.R. § 1630.2(i). The ability to
perform cognitive functions on the level of an average
person falls within this category of basic activities.
Brown v. Cox, 286 F.3d 1040, 1045 (8th Cir. 2002).
Thinking and concentrating qualify as major life activities under the ADA. Battle v. United Parcel Serv., Inc.,
438 F.3d 856, 861 (8th Cir. 2006).
The plaintiff asserts that there are genuine issues
of material fact regarding whether she was regarded
as learning-disabled. Filing 52 at 34-35. The evidence
that the plaintiff argues supports her assertion is the
fact that the defendant had the plaintiff ’s cognitive
function covertly tested by Dr. Anderson, and then
overtly tested by Dr. Callahan, as a condition for
her return to the defendant’s residency program.
3

Disability discrimination claims under the Nebraska Fair
Employment Practices Act and Title VII share a common analysis. Orr v. Wal-Mart Stores, Inc., 297 F.3d 720, 723 (8th Cir. 2002).

App. 45
Assuming that both events were for the purpose of
evaluating the plaintiff ’s cognitive function, neither
resulted in a finding that the plaintiff was impaired.
See filing 53-8 at 14-15. The defendant argues that after the plaintiff passed all cognitive evaluations there
is no evidence, direct or indirect, that she was regarded
as disabled, and no evidence that a perceived disability
played any role in the patient error that led to her termination from the program. Filing 46 at 37-40.
The plaintiff ’s prima facie case required evidence
that she was a disabled person, or regarded as disabled, within the meaning of the ADA, that she was
qualified to perform the essential functions of an internal medicine resident, and that she suffered an adverse employment action under circumstances giving
rise to an inference of unlawful discrimination. Ryan,
679 F.3d at 777. The Court is unable to find evidence
that gives rise to an inference that the plaintiff was
regarded as disabled at the time of the adverse employment action for which the plaintiff seeks damages. In
fact, the evidence the plaintiff relies on, the two cognitive function evaluations, benefited the plaintiff in that
the findings of no impairment allowed the plaintiff to
resume participation in the defendant’s residency program. There is an absence of evidence—and the plaintiff has not directed the Court to what she believes
is evidence suggesting—that after her return to the
program in July 2016, she was regarded as learningdisabled by a person in a position to affect the plaintiff ’s evaluations. Nor has the plaintiff directed the
Court to evidence inferring that the decision to place

App. 46
her under review, on probation, or terminate her from
the defendant’s residence program were due to a perceived learning disability.
Moreover, the Court is unable to conclude that
what the plaintiff asserts is a disability . . . is, in fact,
a disability within the meaning of the ADA. For a mental impairment to be disabling, it must substantially
limit the ability to perform cognitive functions on the
level of an average person in the general population.
Battle, 438 F.3d at 861; Brown, 286 F.3d at 1045. The
cognitive functions the plaintiff struggled with concerned the capacity to retain complex and abstract information. The concerns identified by Dr. Callahan
were mild limitations in synthesizing pieces of medical information into a coherent whole, in making complex decisions, and in the level of abstract reasoning
expected of a first-year resident. The Court has no
difficultly concluding that the cognitive functioning required of a first-year internal medicine resident far exceeds that required of an average person in the general
population. The plaintiff ’s inability to acquire the fund
of medical knowledge necessary to succeed in the defendant’s internal medicine residency program would
not equate to being substantially cognitively limited on
the level of an average person in the general population. No rational fact finder could conclude that the
plaintiff was terminated due to a perceived disability.

App. 47
3.

RETALIATION

For a retaliation claim under the ADA and
NFEPA, there must be either direct evidence of retaliation, or circumstantial evidence that results in an
inference of retaliation when examined under the McDonnell Douglas burden-shifting framework. Hustvet
v. Allina Health System, 910 F.3d 399, 412 (8th Cir.
2018). Under the burden-shifting framework, the
plaintiff ’s evidence must demonstrate a prima facie
case by showing three elements: (1) the plaintiff engaged in protected activity; (2) the occurrence of an adverse employment action; and (3) a causal connection
between the adverse action and the protected activity.
Id. Under the ADA, the causal connection must be butfor causation—in other words, the protected activity
must be the determining factor for the adverse employment action. Univ. Of Tex. Sw. Med. Ctr. v. Nassar, 570
U.S. 338, 346-47 (2013); Hustvet, supra. It is unclear
whether a causal connection under the NFEPA requires but-for causation, or only requires the protected
activity to be a motivating factor for the adverse employment action. See Ludlow v. BNSF Ry. Co., 788 F.3d
794, 802 (8th Cir. 2015).
Neither party argues that there is direct evidence
of retaliation causing the plaintiff ’s termination from
the residency program. The Court is also unable to find
direct evidence of retaliation in its review of the evidence. With regard to the burden-shifting analysis, the
defendant concedes that the plaintiff engaged in protected activity when in March 2016, her lawyer sent a
letter to Dr. Cichowski, in her position as the Director

App. 48
of the defendant’s Internal Medicine Residency Training Program (filing 46-8), complaining that the defendant was in violation of the ADA. The defendant also
concedes that the plaintiff ’s termination from the program in January 2017 (filing 46-14), was an adverse
employment action. Filing 47 at 51. The defendant
does not concede that there is a causal connection of
any kind between these two occurrences.
The plaintiff argues that indirect evidence of retaliation, sufficient to establish the requisite causal
link, is found in the scrutiny that she was under after
returning to the defendant’s program to repeat her
first-year residency. Filing 52 at 25, 30-31. The plaintiff
also asserts that after her return to the program, various supervising physicians retaliated against her by
acting to frustrate her learning experience, and by purposefully misrepresenting and causing others to misrepresent her performance. Filing 52 at 25-26, 30-31.
Regarding her termination in January 2017, the plaintiff implies that her termination was actually retaliation for her March 2016 complaint of ADA violations
because the defendant’s justifications for her termination were not accurate or truthful, that other doctors
make drug prescription errors, the error she made was
one of omission and not medical knowledge, and the
patient was not actually harmed. Filing 52 at 31.
The Court finds that no rational juror could conclude that the letter from the plaintiff ’s lawyer in
March 2016, asserting that the defendant violated the
ADA, was a determining or motivating factor for the
plaintiff ’s termination from the defendant’s program

App. 49
in January 2017. “Although not dispositive, the time
lapse between an employee’s protected activity and the
employer’s adverse action is an important factor when
evaluating whether a causal connection has been established.” McBurney v. Stew Hansen’s Dodge City,
Inc., 398 F.3d 998, 1003 (8th Cir. 2005). In McBurney,
a six-month interval between the plaintiff return from
FLMA leave and the employer’s adverse action did not
establish a sufficient causal link. In Kipp v. Missouri
Highway and Transp. Comm ‘n, 280 F.3d 893, 897 (8th
Cir. 2002), two months between the filing of a discrimination complaint and the termination of employment
could not justify a finding of a causal link. In Van Horn
v. Best Buy Stores, L.P., 526 F.3d 1144, 1149 (8th Cir.
2008), an eight-month interval between the plaintiff ’s
complaint about a sexually offensive remark by a sales
manager and the termination of her employment was
insufficient to find that the complaint was a determinative factor in the decision to discharge the plaintiff.
Finally, in Smith v. Allen Health System, Inc., 302 F.3d
827, 833 (8th Cir. 2002), a two-week interval between
the plaintiff ’s family leave and the employer’s adverse
action was “sufficient, but barely so, to establish causation.” Here, nearly ten months passed between the
plaintiff ’s protected activity on March 7, 2016, and the
defendant’s adverse employment action on January 3,
2017. This lapse of time is far outside the temporal
range typically allowed to support a finding of causation.
Additionally, the plaintiff has only speculated that
the treatment she believes she endured after March 7

App. 50
was retaliatory. She has not suggested a possible reason why the defendant would be motivated by the
March 7 letter to terminate her from the program ten
months later, or continually misrepresent her progress.
The plaintiff ’s argument that her evaluations after
March 7 are not to be believed is refuted by the fact
that the plaintiff ’s evaluations prior to March 7 also
documented her lack of medical knowledge and skill,
and her several performance deficiencies. The reports
of her insufficient fund of medical knowledge and level
of skill after March 7 are no different than the reports
of the plaintiff ’s competency, or lack thereof, that predate her protected activity.
Also, the disability discrimination complaint alleged in the March 7 letter was settled in the dialogue
that ensued between Creighton’s legal department
and the plaintiff ’s lawyer. A resolution was reached
whereby the plaintiff agreed to submit to testing to determine her fitness for duty, and if all was well, the
defendant agreed to allow the plaintiff to repeat her
first-year residency training. Implicit in the plaintiff ’s
argument is that the defendant retained a lingering
resentment over the fact that the plaintiff had complained that the defendant was violating the ADA.
There is no evidence giving rise to a reasonable inference that once the plaintiff ’s March 7 complaint was
settled, the defendant had any reason to retaliate
against the plaintiff. The plaintiff ’s speculative guess
does not suffice as evidence of causation.
Finally, the justification for terminating the plaintiff ’s employment due to a serious error in a patient’s

App. 51
care was legitimate and plainly unrelated to the March
7 letter complaining that the defendant violated the
ADA. The Court finds that there is a complete absence
of evidence giving rise to a reasonable inference that
the March 7 complaint that the defendant was violating the ADA was a motivating or determinative factor
in her termination from the defendant’s internal medicine residency program.
4.

NATIONAL ORIGIN DISCRIMINATION

The plaintiff, in her brief, agreed that her claim for
national origin discrimination may be dismissed. Filing 52 at 1.
III.

CONCLUSION

The Court concludes that there is insufficient evidence upon which a jury could conceivably find for the
plaintiff on any of her claims. Accordingly, the Court
finds that Creighton University’s motion for summary
judgment should be granted regarding all claims in Dr.
Canning’s amended complaint.
IT IS ORDERED:
1.

Defendant’s motion for summary judgment (filing 45) is granted.

2.

Plaintiff ’s complaint is dismissed.

3.

A separate judgment will be entered.

App. 52
Dated this 25th day of September, 2019.
BY THE COURT:
/s/ John M. Gerrard
John M. Gerrard
Chief United States
District Judge

App. 53
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
MARY E. CANNING,
Plaintiff,

4:18-CV-3023

vs.

JUDGMENT

CREIGHTON UNIVERSITY,

(Filed Sep. 25, 2019)

Defendant.
In accordance with the accompanying Memorandum and Order, the plaintiff ’s complaint is dismissed.
Dated this 25th day of September, 2019.
BY THE COURT:
/s/ John M. Gerrard
John M. Gerrard
Chief United States
District Judge

